                                                             Issue Date
                                                                          July 9, 2007
                                                             Audit Report Number
                                                                          2007-KC-1006




TO:         Patricia Straussner, Coordinator, St. Louis Program Center, 7EPHO

            L. Charles Hester, Supervisory Project Manager, St. Louis Program Center,
               7EHMLAX

            Henry S. Czauski, Acting Director, Departmental Enforcement Center, CV

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: The Mansfield Housing Authority of Mansfield, Missouri, Misspent Public
           Housing Funds and Did Not Fulfill Its Section 8 Program Contract
           Administrator Requirements


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Mansfield Housing Authority (Authority) in response to a citizen
             complaint that the Authority misspent public housing funds and used Authority
             assets for personal use.

             Our objective was to determine whether the Authority spent low-rent public
             housing funds in accordance with U.S. Department of Housing and Urban
             Development (HUD) requirements and followed HUD requirements as a Section
             8 program contract administrator.

 What We Found
             The Authority used public housing funds for ineligible expenses and did not
             always adequately support the use of public housing funds. Additionally, it did



                                             1
           not fulfill its duties as a Section 8 contract administrator for a multifamily
           property.

What We Recommend
           We recommend that HUD require the Authority to provide support for and/or
           repay its public housing program from nonfederal sources for ineligible and
           unsupported expenses paid from public housing funds. We also recommend that
           HUD further evaluate the Authority’s expenses, require repayment of any
           additional misused funds, and verify that the Authority has implemented adequate
           controls over expenses. Finally, we recommend that HUD take administrative
           action against the executive director for using federal funds for personal expenses
           and require the Authority to repay unearned Section 8 contract admininstrator fees
           paid to it from October 2004 through May 2007.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           The Authority generally disagreed with our findings. We provided the draft
           report to the Authority on June 4, 2007, and requested a response by June 18,
           2007. It provided written comments on June 12, 2007.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                             2
                           TABLE OF CONTENTS

Background and Objectives                                                            4

Results of Audit
      Finding 1: The Authority Used Public Housing Funds for Ineligible Expenses     5
                  and Did Not Adequately Document Uses of Public Housing Funds
      Finding 2: The Authority Did Not Perform the Duties Required as a Section 8    9
                  Contract Administrator

Scope and Methodology                                                               11

Internal Controls                                                                   12

Appendixes
   A. Schedule of Questioned Costs                                                  13
   B. Auditee Comments and OIG’s Evaluation                                         14




                                            3
                     BACKGROUND AND OBJECTIVES

The Mansfield Housing Authority (Authority) is a nonprofit entity established to provide low-
rent housing under a low-rent program annual contributions contract between the U.S.
Department of Housing and Urban Development (HUD) and the Authority. It maintains 75 low-
rent units for which HUD provides an annual subsidy to assist with operating and maintenance
costs. The Authority is also the Section 8 program contract administrator for a privately owned
multifamily property. HUD’s Section 8 program assists very low income families, the elderly,
and the disabled in obtaining decent, safe, and sanitary housing.

The Authority received federal grants and subsidies from HUD totaling $368,322 for its fiscal
year ending September 30, 2005, and $369,816 for its fiscal year ending September 30, 2006. In
administering its federal grants, the Authority must follow federal requirements, including the
those in the Code of Federal Regulations, Office of Management and Budget circulars, and HUD
handbooks.

The Authority’s current executive director has been in place since July 2004. Authority staff
consists of three employees in addition to the executive director.

Our objective was to determine whether the Authority spent low-rent public housing funds in
accordance with HUD requirements and followed HUD requirements as a Section 8 program
contract administrator.




                                                4
                                 RESULTS OF AUDIT

Finding 1: The Authority Used Public Housing Funds for Ineligible
            Expenses and Did Not Adequately Document Uses of
            Public Housing Funds
The Authority used public housing funds for ineligible expenses and did not maintain adequate
support for expenses. This occurred because the Authority did not have adequate controls in
place to approve and document expenses. As a result, it does not have more than $12,000 in
public housing funds available for the purposes intended, and HUD cannot be assured that it
spent more than $4,000 in public housing funds for allowable purposes.



 Ineligible Expenses


              The Authority used public housing funds for ineligible expenses, including
              personal expenses. Office of Management and Budget Circular A-87 provides
              principles to be applied in establishing the eligibility or ineligibility of certain
              expenses paid from federal funds. The circular states that all expenses must be
              reasonable, adequately documented, and consistent with the Authority’s policies.
              The circular also prohibits the use of federal funds for personal use. Additionally,
              HUD’s annual contributions contract with the Authority states that the Authority
              may not use federal funds to compensate members of its board of commissioners.

              The Authority paid its employees nearly $11,000 in overtime expenses that
              violated the Authority’s overtime policy. In May 2005, the board of
              commissioners approved an overtime policy that required the Authority to
              compensate office staff with compensatory time rather than monetary
              compensation. However, the Authority paid its office staff for overtime rather
              than requiring staff to use compensatory time off. In several instances, the
              executive director authorized payment of overtime for herself and her assistant
              without obtaining proper approval from the board of commissioners to override
              the Authority’s formal overtime policy for office staff.

              The office staff received overtime pay for the following periods and hours:

                  •    For two weeks in June and July 2006, the executive director authorized
                       payment for 40 hours each of overtime for office work for herself and her
                       assistant.
                  •    For three weeks in July and August 2006, the executive director
                       authorized payment for 126 hours each of overtime for herself and her



                                                5
                  assistant to work with law enforcement to identify and evict tenants who
                  were violating federal laws and no longer eligible for housing assistance.
              •   For two weeks in September 2006, the executive director authorized
                  payment for 40 hours each of overtime for herself and her assistant to
                  prepare for a HUD inspection of the Authority’s housing units.

           The Authority also purchased gifts for the board of commissioners and tenants,
           and provided meals for the board of commissioners that were not related to
           conducting Authority business. These gifts and meals totaled more than $1,300.
           Further, the Authority paid nearly $600 for five months of cellular phone service
           for the executive director’s son, who was not an Authority employee. Neither the
           executive director nor her son reimbursed the Authority for these costs.


Unsupported Expenses


           The Authority did not maintain adequate support for public housing expenses.
           All expenses must be adequately documented to determine eligibility of the
           expense according to HUD regulations.

           We reviewed the Authority’s expenses for six months of the two-year period
           October 2004 through September 2006. Total expenses for the six-month period
           were $255,978. We reviewed the Authority’s support for $188,533 of its
           expenses, excluding payroll and minor tenant reimbursements. The Authority
           properly maintained invoices and check stubs for each expense. However, it did
           not always maintain detailed receipts or other explanations to support eligibility
           of the expenses under the public housing program.

           For the six months reviewed, the Authority did not maintain adequate support for
           12 expenses totaling more than $4,000. It paid a majority of the unsupported
           expenses to discount and grocery stores, using its Authority credit card accounts.
           The Authority told us that the purchases were food and supplies for tenant
           activities. The remaining unsupported expenses were for materials and supplies.

           In addition, the Authority paid end of year bonuses to its four employees in 2005.
           Office of Management and Budget Circular A-87 requires that compensation for
           services conform to established policies of the governmental unit. The Authority
           had no policy regarding bonus or incentive pay. Although the board of
           commissioners approved the 2005 bonuses, the Authority should have had a
           bonus and incentive pay policy, and should have maintained adequate support to
           show that bonuses paid from federal funds were reasonable and warranted.




                                            6
Inadequate Controls


             The Authority did not have adequate controls to prevent its staff from misusing
             the public housing funds or to ensure that the Authority maintained proper support
             for all expenses of the public housing program. It did not have adequate written
             policies and procedures for daily operations, including policies governing
             overtime, employee bonuses, cellular phone use, or requirements for appropriately
             evaluating and documenting expenses.


New Policies and Procedures
Adopted

             During the audit, the Authority revised its policies and procedures, and its board
             members adopted the new policies in January 2007. The new policies included

                •   An overtime policy providing examples of overtime use and allowable
                    compensation;
                •   A communications policy restricting use of Authority cellular phones; and
                •   A credit card policy requiring preapproval from the executive director for
                    all purchases, allowing purchases for Authority purposes only, and
                    requiring appropriate documentation.

Conclusion

             The Authority used public housing funds for ineligible expenses and did not
             adequately support its use of public housing funds. Because it misspent more
             than $12,000 in public housing funds, the funds are no longer available for their
             intended purposes, and HUD cannot be assured that the funds were spent for
             allowable purposes.

Recommendations

             We recommend that the coordinator of the St. Louis Program Center

             1A. Require the Authority to repay its public housing program $12,242 from
                 nonfederal funds for ineligible expenses ($10,906 for overtime and $1,336
                 for gifts and meals).

             1B. Require the Authority to provide support for $4,020 paid from its public
                 housing program and/or repay any unsupported amount from nonfederal
                 funds.




                                              7
1C. Further evaluate the Authority’s expenses from October 1, 2004, to the
    present and require repayment from nonfederal funds of any ineligible or
    unsupported expenses identified.

1D. Verify that the Authority has developed and implemented appropriate
    policies and procedures to ensure proper spending and support of the uses of
    public housing funds.

1E. Require the executive director to reimburse the Authority for her son’s
    cellular phone expenses of $569.


We recommend that the acting director of the Departmental Enforcement Center

1F. Take appropriate administrative action against the executive director for
    using public housing funds for personal expenses.




                                8
Finding 2: The Authority Did Not Perform the Duties Required as a
            Section 8 Contract Administrator
The Authority did not fulfill its duties as the Section 8 program contract administrator for a
multifamily property receiving HUD assistance. Authority managers were aware that they
should have performed more oversight duties but, instead, chose to perform only the duties
performed by prior Authority management. As a result, HUD cannot be assured that the assisted
property complied with applicable regulations and provided satisfactory housing to its tenants.



 Unfulfilled Section 8 Contract
 Administrator Duties

              The Authority did not perform the duties required as a Section 8 contract
              administrator for a privately owned multifamily property receiving Section 8
              assistance. HUD requires contract administrators to monitor the performance of
              HUD-assisted properties to ensure that the owners comply with applicable
              requirements and provide decent, safe, and sanitary housing to the assisted
              tenants.

              HUD requires contract administrators to perform certain duties when overseeing
              HUD-assisted properties. For example, HUD requires contract administers to

                  •   Verify that property managers screen and select tenants in accordance with
                      HUD requirements;
                  •   Verify that property managers accurately calculate tenant rents and utility
                      allowances; and
                  •   Conduct on-site reviews that include overall property inspections,
                      individual unit inspections, and management reviews.

              The Authority did not perform these or most other duties required of contract
              administrators. It merely received the monthly Section 8 reports from the project
              owner, verified the accuracy of the mathematical calculations, and forwarded the
              documents to HUD. It also collected the monthly Section 8 subsidy payment
              from HUD, then paid the property owner its monthly subsidy amount and paid
              itself the $356 monthly administration fee.

 Contract Administrator Duties
 Ignored

              Authority managers told us that soon after beginning work at the Authority in
              2004, they realized that the Section 8 contract administrator responsibility
              required more work than they were doing. However, the Authority managers
              were not fully aware of all of the duties required of them. The managers stated
              that they brought this issue to the attention of the Authority’s board members but


                                               9
          ultimately decided to perform only those duties performed by the prior Authority
          managers. The Authority managers agreed that they had not fully performed the
          duties required to earn the $356 per month management fee the Authority had
          collected since current managers came to the Authority in 2004.

HUD Not Assured That
HUD-Assisted Owner Complied
with Requirements

          Because the Authority did not fulfill its duties as the Section 8 contract
          administrator for the HUD-assisted multifamily property, HUD cannot be assured
          that the property owner complied with HUD’s Section 8 program requirements
          and provided satisfactory housing to its tenants. Further, the Authority collected
          $356 per month in unearned administrative fees totaling approximately $11,400
          from the beginning of our audit period (October 2004) through May 2007.

          As of July 2007, HUD will terminate Section 8 contract administrator agreements
          with all housing authorities, and will transfer the duties to other types of contract
          administrators. Therefore, the Authority will no longer be serving as a contract
          administrator for the multifamily property.

Recommendations

          We recommend that the supervisory project manager of the St. Louis Program
          Center

          2A. Require the Authority to repay from nonfederal funds any unearned
              administrative fees it received as the Section 8 contract administrator. At a
              minimum, it should repay fees of approximately $11,400 for the period
              October 2004 through May 2007.




                                           10
                         SCOPE AND METHODOLOGY

HUD received a citizen complaint that Authority staff had misused federal funds and Authority
property; therefore, HUD requested that we conduct a review.

Our review covered the period from October 1, 2004, through September 30, 2006, and was
expanded as necessary. Our review objective was to determine whether the Authority spent low-
rent public housing funds in accordance with HUD requirements and followed HUD
requirements as a Section 8 program contract administrator.

We conducted interviews of the Authority’s staff and its board of commissioners. We also
interviewed HUD staff responsible for overseeing the Authority. We reviewed the Authority’s
policies and procedures, general ledgers, monthly expense records, bank statements, audited
financial statements, and board members’ meeting minutes. We also reviewed the multifamily
project’s Section 8 year-end settlement statements for 2004 through 2006, federal regulations, and
the annual contributions contract between HUD and the Authority. Additionally, we compared
the Authority’s expenses to those of four similar public housing authorities.

One issue in the complaint was that Authority staff used the Authority’s vehicles for personal
use. We concluded that the executive director had the board of commissioners’ approval to use
the vehicles for transportation between home and work. Although the Authority did not have a
vehicle use policy in its formal policies and procedures before our review, the board of
commissioners adopted a policy during our review. Our review did not indicate excessive use of
the two Authority vehicles.

We reviewed a nonrepresentative sample of six months of Authority expenses, totaling
$255,978, from our audit period. We selected the last three months of the audit period (July,
August, and September 2006) to evaluate the most recent procedures for paying and
documenting expenses. We also reviewed expenses from January, July, and December 2005 to
evaluate past practices.

We conducted audit work at the Authority in Mansfield, Missouri, from November 2006 through
April 2007. We performed our review in accordance with generally accepted government
auditing standards.




                                                11
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations
              •       Safeguarding of resources – Polices and procedures in that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we did not identify any significant weaknesses that would
              remain after HUD cancels the Section 8 contract administrator agreement with the
              Authority in July 2007.




                                               12
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS

                  Recommendation            Ineligible 1/   Unsupported 2/
                         number

                         1A                      $12,242
                         1B                                         $4,020
                         1E                        $569
                         2A                      $11,400


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.




                                            13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 2




Comment 3

Comment 4
Comment 5

Comment 6




                         14
Comment 7




Comment 8




Comment 9


Comment 10




             15
                         OIG Evaluation of Auditee Comments


Comment 1   We maintain that the Authority spent public housing funds for ineligible purposes
            when it paid office staff for overtime, contrary to Authority policy; provided gifts
            and meals to members of the board of commissioners and tenants; and paid
            personal cellular phone charges. In addition, while a board of commissioners
            member countersigned Authority checks to pay invoices for Authority expenses,
            this practice does not override federal rules regarding the eligibility of the
            expense. Further, the Authority did not consistently provide adequate support for
            board members to be sure that the approved checks were for good and services
            eligible to be paid from federal funds.

Comment 2   We acknowledge that the Authority completed limited financial duties required of
            a Section 8 program contract administrator, including

               •   Verifying the mathematical calculations on the monthly rent assistance
                   request before providing it HUD,
               •   Collecting and forwarding the monthly rent assistance payment to the
                   property owner, and
               •   Providing payment information to its fee accountant for recordkeeping
                   purposes.

            However, the Authority did not perform several key functions meant to ensure
            tenant eligibility; accuracy of rent and utility allowances paid by HUD; and
            decent, safe, and sanitary units were provided to tenants.

Comment 3   The board of commissioners approved specific instances of monetary
            compensation for overtime related to short-term projects. However, the board
            resolutions authorizing specific periods of paid overtime were not intended to
            override the general overtime policy in all future instances. We did not question
            paid overtime periods authorized by board resolutions that overrode the general
            policy for a specific period of time and task.

Comment 4   While we maintain that the Authority had no policy for bonus or incentive pay, as
            required by federal rules, we acknowledge that the board of commissioners
            approved the performance-based bonuses. We revised the report to state that the
            Authority should have had a bonus and incentive pay policy, and should have
            adequately supported the bonuses paid to demonstrate that they were reasonable
            and warranted.

Comment 5   Throughout the audit, we kept the Authority advised of the unsupported expenses
            questioned in our report. We reviewed all documentation made available and
            questioned only those expenses that the Authority could not adequately support at
            the time that we issued this report.




                                             16
Comment 6     As indicated in the report, HUD's annual contributions contract with the Authority
              states that the Authority may not use federal funds to compensate members of its
              board of commissioners. We maintain that any items purchased for the personal
              use of board members constitute compensation or gifts.

Comment 7     After further consideration, we removed references to the Authority's budget from
              the report.

Comment 8     We agree that the Authority collected monthly administrative fees but maintain
              that the Authority did not fully earn the fees because it did not perform all
              required services as a Section 8 contract administrator. With its response to our
              report, the Authority provided schedules of Section 8 contract administrator fees
              collected from January 1, 1997, through June 30, 2007. We did not include the
              schedules in our report because we are not questioning collection of the fees, but
              rather the Authority's right to the fees collected. The schedules may be obtained
              by submitting a formal Freedom of Information Act request to our office.

Comment 9     The executive director had not repaid the $569 to the Authority during our review,
              nor did we confirm that she has since repaid the Authority. The cellular phone
              company provided a statement that it had incorrectly placed the son’s plan on the
              Authority’s monthly billing statement. Authority managers told us that they had
              repeatedly tried to have the son’s phone plan removed from the Authority’s
              statement but were unsuccessful. Although the Authority was aware that the
              son’s phone charges should not have been on the Authority’s monthly invoice, it
              continued to pay the monthly charge from federal funds for five months.

Comment 10 As explained in the independent auditors' reports for the Authority's fiscal years
           2004 through 2006, the purpose of their review was to express an opinion on
           whether the Authority's financial statements were free of material misstatements.
           The auditors' reports also stated that the auditors performed some testing of
           compliance with laws, regulations, contracts, and grants that could have had a
           direct effect on the determination of financial statement amounts. However, the
           auditors pointed out that their review provided no opinion on whether the
           Authority complied with these rules. The auditors' reports further stated that their
           review of internal controls over financial reporting would not necessarily disclose
           all reportable conditions considered to be material weaknesses.

              In summary, the independent auditors' reviews were not meant to provide, nor did
              they provide, the Authority assurance that it was complying with applicable rules
              and regulations when spending public housing funds or acting as a Section 8
              contract administrator.




                                               17
